                                                               O FFICE OF A UDIT S ERVICES , R EGION I
                                                                             JFK F EDERAL B UILDING
                                                              15 N EW S UDBURY S TREET, R OOM 2425
                                                                                B OSTON , MA 02203
June 26, 2012

Report Number: A-01-12-00007

JudyAnn Bigby, MD
Secretary
Executive Office of Health and Human Services
One Ashburton Place, 11th Floor
Boston, MA 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Massachusetts Medicaid Payments to Redstone Rehabilitation and
Nursing Center Did Not Always Comply With Federal and State Requirements. We will forward
a copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through email at
Curtis.Roy@oig.hhs.gov. Please refer to report number A-01-12-00007 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Dr. JudyAnn Bigby



Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
ROchiORA@cms.hhs.gov
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL


  MASSACHUSETTS MEDICAID
   PAYMENTS TO REDSTONE
 REHABILITATION AND NURSING
CENTER DID NOT ALWAYS COMPLY
   WITH FEDERAL AND STATE
        REQUIREMENTS




                       Daniel R. Levinson
                        Inspector General

                           July 2012
                         A-01-12-00007
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce its
Medicaid payments to nursing homes. The State agency determines the amount of a
beneficiary’s contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment by the amount of the beneficiary’s contribution, the nursing home could receive
overpayments. Pursuant to Medicaid requirements, the nursing home must return any
overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services (CMS) on its Form CMS-64, Quarterly
Statement of Expenditures for the Medical Assistance Program.

Redstone Rehabilitation and Nursing Center (Redstone), located in East Longmeadow,
Massachusetts, is a Medicare and Medicaid certified facility.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to Redstone
in accordance with Federal and State requirements from January 2006 through March 2012.

SUMMARY OF FINDING

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Redstone. However, the State agency did not always adjust its Medicaid per
diem payments to Redstone by the amount of beneficiaries’ cost-of-care contributions from
resources, such as Social Security and pensions. As a result, the State agency’s Federal claim
was overstated by a total of $65,349 ($37,429 Federal Share). We attributed the incorrect
Medicaid payments to clerical and billing errors.




                                                  i
RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $65,349 from Redstone and refund the Federal share of
       $37,429 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

REDSTONE REHABILITATION AND NURSING CENTER COMMENTS

In written comments on our draft report, Redstone agreed with our finding. Redstone’s
comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope ........................................................................................................1
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................2

          UNADJUSTED NURSING HOME PAYMENTS .............................................3

          AMOUNT OWED TO THE FEDERAL GOVERNMENT ................................3

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................3

          RECOMMENDATIONS .....................................................................................3

          REDSTONE REHABILITATION AND NURSING CENTER
            COMMENTS ..................................................................................................3

          STATE AGENCY COMMENTS ........................................................................4


APPENDIXES

          A: MEDICAID OVERPAYMENTS TO REDSTONE REHABILITATION
             AND NURSING CENTER BY CALENDAR YEAR

          B: REDSTONE REHABILITATION AND NURSING CENTER COMMENTS

          C: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost of care during the financial eligibility process and enters
this amount into its computer system. The beneficiary’s cost-of-care contribution is remitted to
the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its Form
CMS-64, Quarterly Statement of Expenditures for the Medical Assistance Program.

Redstone Rehabilitation and Nursing Center (Redstone), located in East Longmeadow,
Massachusetts, is a Medicare and Medicaid certified facility.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to Redstone
in accordance with Federal and State requirements from January 2006 through March 2012.

Scope

For the period January 2006 through March 2012, we reviewed Medicaid accounts that were at
risk for having overpayments. We limited our review of internal controls to obtaining an
understanding of Redstone’s procedures for reviewing accounts and reporting overpayments to
the Medicaid program.




                                                1
We performed fieldwork from April through May 2012 at Redstone in East Longmeadow,
Massachusetts; the State agency in Boston, Massachusetts; and the CMS Regional Office in
Boston, Massachusetts.

Methodology

To accomplish our objective, we:

   •   reviewed State and Federal regulations pertaining to overpayments,

   •   worked with Redstone officials to identify credit balances in the accounting records that
       were potentially overpayments,

   •   reviewed patient accounts to determine whether overpayments had occurred,

   •   determined the cause of the overpayments, and

   •   coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Redstone. However, the State agency did not always adjust its Medicaid per
diem payments to Redstone by the amount of beneficiaries’ cost-of-care contributions from
resources, such as Social Security and pensions. As a result, the State agency’s Federal claim
was overstated by a total of $65,349 ($37,429 Federal share). We attributed the incorrect
Medicaid payments to clerical and billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 note that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.




                                                2
UNADJUSTED NURSING HOME PAYMENTS

The State made 164 overpayments to Redstone from January 2006 through March 2012 (see
Appendix A). Specifically, the State agency did not adjust its Medicaid payments to Redstone
by the amount of beneficiaries’ cost-of-care contributions from resources, such as Social
Security and pensions.

                          An Example of a Medicaid Overpayment

   Mr. F was a patient at Redstone nursing home during February 2010. Based on his other
   resources, the State agency calculated Mr. F’s cost-of-care contribution to be $900 a
   month. The State agency determined that the nursing home was entitled to a monthly
   payment of $4,900. Because of Mr. F’s $900 cost-of-care contribution, the State agency
   was responsible for only $4,000 of the $4,900 nursing home costs. However, the nursing
   home received a total of $5,800 ($4,900 from the State agency and $900 from Mr. F). This
   error occurred because the State agency’s computer system did not adjust the payment
   amount by Mr. F’s cost-of-care contribution. The nursing home, therefore, received an
   overpayment of $900 ($5,800 minus $4,900) for Mr. F’s care for the month of February.

AMOUNT OWED TO THE FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to Redstone for the period January 2006 through March 2012 was overstated by a total of
$65,349 ($37,429 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 164 incorrectly reimbursed Medicaid payments to clerical and billing errors.
State agency officials informed us that they have recently implemented a new computer system
that will reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $65,349 from Redstone and refund the Federal share of
       $37,429 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

REDSTONE REHABILITATION AND NURSING CENTER COMMENTS

In written comments on our draft report, Redstone agreed with our finding. Redstone’s
comments are included in their entirety as Appendix B.


                                               3
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               4
APPENDIXES
APPENDIX A: MEDICAID OVERPAYMENTS TO REDSTONE
      REHABILITATION AND NURSING CENTER
               BY CALENDAR YEAR

  Calendar    Number of          Total
   Year      Overpayments    Overpayments

    2006          4             1,057

    2007          7             1,749

    2008          11            1,940

    2009          23             3,701

    2010          53            27,043

    2011         62             26,504

    2012          4              3,355

   TOTAL         164            $65,349
135 Benton Drive                                                                                    413.525.3336
East Longmeadow, MA OJ 028                                                                      . Fax 413 .525.9814

                                        Rehabilitation and Nursing Center

       APPENDIX B: REDSTONE REHABILITATION AND NURSING CENTER COMMENTS
          June 26, 2012


          Michael Armstrong, Reg. Inspector General for Audit Services 

          Office of Audit Servi.ces, Region 1 

          JFK federal Building 

          15 New Sudbury St., Room 2425 

          Boston, MA 02203 


           RE: A-01-12-00007 Written Comments

           Dear Mr. Armstrong,

          While Redstone Rehabilitation and Nursing Center ("Redstone") agrees with the findings
          in this report, like most long term care providers, it is interested in a more efficient
          mechanism for confirming and collecting beneficiary contribution an10unts that are owed
          to the Medicaid program by the individual beneficiaries.

           Due to the complexity of Medicaid enrollment for long term care, and delays in
           establishing eligibility for new and on-going beneficiaries, the state Medicaid MMIS
           system occasionally displays incomplete or outdated information regarding beneficiary
           contribution amounts . Although the frequency of this has decreased since the recent
           MMIS system upg ntue, on-going problems and delays still persist.

           Delays in calculating andlor updating the beneficiary contribution amounts in the State's
           MMIS system cause problems for Redstone arrd'Uther providers in two ways. First, it
           causes providers to collect incorrect amounts from beneficiaries or their responsible
           parties. Second, and more relevant since the economic downturn, providers are unable to
           collect contribution amounts that are increased retroactively. This leaves Redstone and
           many other provider" "vithout any payment source for this portion of the Medicaid rate.
           ;.~
           Bryan Rossano, Admini strator 

           Redstone Rehabilitatio ,i and Nursing Center 

                                   APPENDIX C: STATE AGENCY COMMENTS 



                                The Commonwealth of Massachusetts
                            Executive Office of Health and Human Services
                                           Office of Medicaid
                                         One Ashburton Place
                                          Boston, MA 02108
 DEVAL L. PATRICK                                                                                                  JUDYANN I31GBY, M.D.
      Governor                                                                                                            Secretary

TIMOTHY P. MURRAY                                                                                                  JULIAN J. HARRIS, M.D.
 Lieutenant Governor                                                                                                  Medicaid Director




         July 13, 2012

         Michael J. Armstrong
         Regional Inspector General, A\ldit Services
         HHS/OIG/OAS
         -Region I
          JFK Federal Building
          Boston,.MA 02203

         RE: Audit Report No: A-O 1-12-00007

          Dear Mr. Armstrong:

         Thank you-,for the opportunity to review and comment on Draft Audit Repo11 No: A-01-12-00007 "Massachusetts
         Medicajd Payments to Redstone Rehabilitation and Nursing Center Did Not Always Comply with Federal and State
         Requirements".

         Our responses to the report' s specific recontmendations   ar~   as follows:

         Recommendation: . 

         1) Collect overpayments totaling $65,349 from Redstone and refund $3'Z,429 , the Federal share of these payments, 

         to CMS on the next quarterly CMS-64. 


         Response: We are in agreement with this finding and will {blrow the procedures described in state Medicaid
         regulations at 130 CMR 450.237 to collect the overpayments from the provider. Under 130 CMR 450.237 , the
         provider has a due process right to contest the overpayment, including the right to request an adjudicatory hearing
         and judicial review.

         MassHealth will need the OIGs working papers identifying the specific claim~ in order i:o underta,ke collection of the
         overpayments, notity Redstone and if required, defend the ov.erpaymenfamounts should Redstone contest the
         overpayment notice. If Redstone does not contest the overpayment collection or does not prevail in contesting this
         overpayment, MassHealth will ensure that the EOHHS' Federal Revenue Unit will rettlm the Federal share on the
         appropriate CMS-64.

          Recommendation:
          2) Continue agency efforts to ensure that Medicaid overpayments to nursing homes continue to be identified,
             collected and refunded.

          Response:· MassHealth is in agreement with this reconunendation and will ensure that periodic reviews and audits
          continue to be conducted [0 i entify, collect and refund overpaym.ents.
